WAIVER

Supreme Court, U.S.
FILED

MAY 1 8 2021

Supreme Court of the United State

OFFICE OF THE CLERK

No. 20-1582
v.

Wei-Ping Zeng
(Petitioner)

Texas Tech University Health Science
Center at El Paso, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
X

I am filing this waiver on behalf of all respondents.

0 I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:,
0

I am a member of the Bar of the Supreme Court of the United States. (Filing instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

X

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will he filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

174

Signature
Date:

May 18, 2021..

(Type or print) Name Rola Daaboill•
p Mr.

❑ Ms.

D Mrs.

❑ Miss

Firm Office of the Attorney General of Texas
Address P.O. Box 1254'8, Capitol Station
City & State Austin, Texas
Phone 512-936-l'322

Zip

78711-2548

Email rola.daaboul(e0ag.texas.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIR
cc:

